/

V
No,

IN THE
SUPREME COURT of THE UNITED STATES

In Pel

M 'Rami* MaKJtssi, Pro st - PETITIONER

APPENDICES FOR WRIT dF HABEAS PETITION Enclosed

HP? Em*, ft

HCCfi denl^J Af>ftAl 40(l)(Q

. A

/)PPEMJ)I/

6

JishrA CouA Jk"tistni £vax<)-

MVZ&hX

C

ACCA Jthicl rrWr/o

PfP&NDlX

D

inlknl Dsheet duel canton -

APPENDIX

£ hhnl Hccn

cl

rve

B ~ '
a/>pti

< ?Ves

_ _ . 3-i ftf6

i - - * • 3 rves

ToIa\

So

V

MPEMlX /)
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-7824
ADIB EDDIE RAMEZ MAKDESSI, a/k/a Eddie Makdessi,
Petitioner - Appellant,
v.
BRYAN WATSON, Warden of Wallens Ridge State Prison,
Respondent - Appellee.
. •

Appeal from the United States District Court for the Eastern District of Virginia, at
Richmond. M. Hannah Lauck, District Judge. (3:09-cv-00214-MHL)

Submitted: May 20, 2021
Before WILKINSON, NIEMEYER, and MOTZ, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Adib Eddie Ramez Makdessi, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

Decided: May 25, 2021

AfPPidtX ft.

PER CURIAM:
Adib Eddie Ramez Makdessi appeals the district court’s order construing his Fed.
R. Civ. P. 60(b), (d) motion for relief from judgment as an unauthorized, successive 28
U.S.C. § 2254 petition and dismissing it for lack ofjurisdiction.* Our review of the record
confirms that the district court properly construed Makdessi’s motion as a successive
§ 2254 petition over which it lacked jurisdiction because he failed to obtain prefiling
authorization from this court. See 28 U.S.C. § 2244(b)(3)(A); McRae, 793 F.3d at 397400. Accordingly, we affirm the district court’s order.
Consistent with our decision in United States v. Winestock, 340 F.3d 200, 208 (4th
Cir. 2003), we construe Makdessi’s notice of appeal and informal brief as an application
to file a second or successive § 2254 petition. Upon review, we conclude that Makdessi’s
claims do not meet the relevant standard. See 28 U.S.C. § 2244(b)(2). We therefore deny
authorization to file a successive .§ 2254 petition. Finally, we deny Makdessi’s motion for
the appointment of counsel and an evidentiary hearing.
We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
AFFIRMED

A certificate of appealability is not required to appeal the district court’s
jurisdictional categorization of a Rule 60 motion as an unauthorized, successive habeas
petition. United States v. McRae, 793 F.3d 392,400 (4th Cir. 2015).
2

/IPPEAlOU 6
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
ADIB EDDIE RAMEZ MAKDESSI,
Petitioner,
v.

Civil Action No. 3:09CV2I4
Civil Action No. j3\

BRYAN WATSON,
Respondent.
MEMORANDUM OPINION
Petitioner Adib Eddie Ramez Makdessi was convicted in the Circuit Court for City of
Virginia Beach and “is currently serving two life sentences for first-degree murder for the May
14, 1996 killings of Elise Makdessi, his wife, and Quincy Brown, Elise’s co-worker at Naval Air
Station Oceana” and an additional thirteen years for two firearm crimes. Makdessi v. Watson,.
682 F. Supp. 2d 633,636 (E.D. Va. 2010). By Memorandum Opinion and Order entered on
February 4, 2010, this Court denied Makdessi’s petition for a writ of habeas corpus pursuant to
28 U.S.C. § 2254. See id. at 657; (ECF Nos. 17, 18). On June 28, 2010, the Court received from
Makdessi a submission entitled “Criminal Complaints & MOTION Rule 60(b).” (ECF No. 24.)
Despite being labeled in part as a Federal-Rule of-Givil-.Procedure"60(b);motion, the submission
appeared to be a reference copy of a document Makdessi filed with the Court sent to the “Chief
Division Counsel, Richmond F.B.I.” and other federal officials that lodged complaints about the
criminal process. {See id. at 1.) By Memorandum Order entered on July 6,2010, the Court
construed this submission to be Makdessi’s attempt to file a criminal complaint and informed
Makdessi that it would take no further action on his submission. (ECF No. 25.)
On November 2, 2015, the Court received from Makdessi a “MOTION 60(b) Fraud Upon
The Court and Fraud Upon The Habeas Court.” (ECF No. 39.) Makdessi listed nine repetitive

claims essentially arguing that he is actually innocent of his crimes of conviction and that the
prosecution tampered with or “covered-up” purportedly exculpatory evidence. (See, e.g., id.
at i.) Despite labeling his motion as a Rule 60(b) Motion, Makdessi continued to attack his state
convictions. By Memorandum Opinion and Order entered on June 16, 2016, the Court dismissed
the Rule 60(b) Motion as a successive, unauthorized 28 U.S.C. § 2254 petition.. (ECF Nos.
46,47.)
On June 26,2017, the Court received from Makdessi a “Motion Rule 60(d)(1) and
(d)(3),” in which he purports to “invok[e] this Court’s jurisdiction ... for fraud upon the initial
federal habeas court and grave miscarriage ofjustice.” (ECF No. 57, at 1.)' Makdessi once
again listed eleven “frauds” that, in essence, assert his innocence, and argued that the prosecution
“deliberately] cover[ed]-up ... exculpatory evidence.” (Id. at 4, 5-16.) Despite labeling the
motion as one brought pursuant to Rule 60(d), Makdessi again attacked his state convictions.
The Court treated the Rule 60(d) Motion as a successive § 2254 petition and dismissed the action
without prejudice.
One June 15,2020, the Court received a “MOTION RULE 60(b)(6) & 60(D)(3) FRAUD
UPON INITIAL HABEAS COURT.” (“Rule 60(b) & (d)(3) Motion,” ECF No. 75.)2 In his
most recent Rule 60(b) & (d)(3) Motion, Makdessi presents three grounds for relief. In his first
two grounds, Makdessi contends that “initial habeas claim 1 (B)(i) resulted in defective ruling
that was dismissed by serious errors by fraud upon initial habeas which precluded a merits

i

The Court corrects the capitalization in quotations from Makdessi’s submissions. The
Court employs the pagination assigned by the CM/ECF docketing system for citations to
Makdessi’s cited motions.
2 Federal Rule of Civil Procedure 60(b)(6) permits a court to grant relief for “any other
reason that justifies relief.” Fed. R. Civ. P. 60(b)(6). Rule 60(d)(3) permits a court to “set aside
judgment for fraud on the court.” Fed. R. Civ. P. 60(d); see United States v. Conrad, 675 F.
App’x 264-65 (4th Cir. 2017).
2

determination" and “also proves that all attorneys were so defective.” {Id. at 2; see also id. at 3.)
Although it is not entirely clear what Makdessi intends to argue, he apparently believes that his
trial attorney failed to conduct an adequate investigation into his case, which caused him to have
an unfair trial and appeal. (See id. at 1-3.) In his third ground, Makdessi contends that the Court
“overlooked” evidence and relied on “fraudulent facts” in the state court record. {See id. at 3-4.)
Although Makdessi attempts to add a layer to his underlying claims that this Court ruled
incorrectly in dismissing his § 2254 Petition, in this ground, he attempts to challenge the

L

sufficiency'and competency of the evidence in his Virginia Beach criminal proceedings.,
The Antiterrorism and Effective Death Penalty Act of 1996 restricted the jurisdiction of
the district courts to hear second or successive applications for federal habeas corpus relief by
prisoners attacking the validity of their convictions and sentences by establishing a “gatekeeping
mechanism.” Felker v. Turpin, 518 U.S. 651,657 (1996) (internal quotation marks omitted).
Specifically, “[bjefore a second or successive application permitted by this section is filed in the
district court, the applicant shall move in the appropriate court of appeals for an order
authorizing the district court to consider the application.” 28 U.S.C. § 2244(b)(3)(A).
The United States Court of Appeals for the Fourth Circuit has held “thaLdistrict courts,
must treat Rule 60(b) motions as successive collateral review applications when failing to do so
would allow the applicant to ‘evade the bar against relitigation of claims presented in a prior
application or the bar against litigation of claims not presented in a prior application.’” United
States v. Winestock, 340 F.3d 200, 206 (4th Cir. 2003) (quoting Calderon v. Thompson, 523 U.S.
538, 553 (1998)). Additionally, the Fourth Circuit has provided the following guidance in
distinguishing between a proper Rule 60(b) motion and an improper successive § 2255 motion or
habeas petition:

3

[A] motion directly attacking the prisoner’s conviction or sentence will usually
amount to a successive application, while a motion seeking a remedy for some
defect in the collateral review process will generally be deemed a proper-motionto ~
-reconsider.* Thus, a brand-new, free-standing allegation of constitutional error in
the underlying criminal judgment will virtually always implicate the rules
governing successive applications. Similarly, new legal arguments or proffers of
additional evidence will usually signify that the prisoner is not seeking relief
available under Rule 60(b) but is instead continuing his collateral attack on his
conviction or sentence.
Id. at 207 (citations omitted). Here, Makdessi’s Rule 60(b) & (d)(3) Motion raises challenges to
his Virginia Beach convictions,- rather than truly challenging any defects in his federal habeas- .
proceedings. Makdessi once again enumerates purported errors that occurred during his state
trial. See Gonzalez v. Crosby, 545 U.S. 524, 530-32 (2005) (construing a motion as a successive
habeas corpus application if it seeks vindication of a claim for relief from the criminal judgment,
regardless of the title on the motion).3 Accordingly, the Court must treat the Rule 60(b) Motion
as a successive § 2254 petition. See United Slates v. Merica, Nos. 5:04CR00015, 5:11CV80375,
2011 WL 6325881, at *1 (W.D. Va. Dec. 16, 2011) (construing action under Fed. R. Civ. P.
60(d) as a successive § 2255.motion). The Court has not received authorization from the Fourth
Circuit to file the present § 2254 petition. Therefore, the action will be DISMISSED WITHOUT
PREJUDICE for want of jurisdiction.
3 If Makdessi truly challenged a defect in his habeas proceeding in this ground, the Court
would be required to provide him with the opportunity to delete the improper, successive claims.
“[A] Rule 60(b) motion in a habeas proceeding that attacks ‘the substance of the federal court’s?
resolution of a claim on the merits’ is not a true Rule 60(b) motion, but rather a successive
habeas petition,’’ and is subject to the preauthorization requirement of 28 U.S.C. § 2244(b)(3)(A)
(2012). United States v. McRae, 793 F.3d 392, 397 (4th Cir. 2015) (quoting Gonzalez, 545 U.S.
at 531-32). By contrast, “[a] Rule 60(b) motion that challenges ‘some defect in the integrity of "
-^the/ederal habeas proceedings-... is^true Rule 60(b) motion* and is not subject to the
preauthorization requirement.” Id. (quoting Gonzalez, 545 U.S. at 531-32), Where, however,
the movant “presents claims subject to the requirements for successive applications as well as
claims cognizable under Rule 60(b),” such a motion is a mixed Rule 60(b)/§ 2255 motion. Id. at
400 (quoting Winestock, 340 F.3d at 207).
While Makdessi adds statements about the GouiTrelying on evidence.in the state courtrecord in its federal habeas opinion, he raises no true defect in the collateral review process.
Therefore, he seeks to bring a successive habeas petition.
4

An appeal may not be taken from the hnal order in a § 2254 proceeding unless a judge
issues a certificate of appealability. 28 U.S.C. § 2253(c)(1)(A). A certificate of appealability
will not issue unless a prisoner makes “a substantial showing of the denial of a constitutional
riaht.” 28 U.S.C. § 2253(c)(2). This requirement is satisfied only when “reasonable jurists could
debate whether (or, for that matter, agree that) the petition should have been resolved in a
different manner or that the issues presented were 'adequate to deserve encouragement to
proceed further.5" Slack v. McDaniel, 529 U.S. 473, 484 (2000) (quoting Barefoot v. Estelle,
463 U.S. 880, 893 & n.4 (1983)). Because Makdessi fails to satisfy this standard, a certificate of
appealability will be DENIED.
An appropriate Order shall issue.
IA
M. HannahOuslA
United States District Judge

v

Date:

1*""! ^

Richmond, Virginia

5

/IPPEAtt/X 8
IN THE UNITED STATES DISTRI CT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
A DIB EDDIE RAMEZ MAKDESSI,
Petitioner.
Civil Action No.
Civil Action No. -o .C-V X I d

v.
BRYAN WATSON,
Respondent.
FINAL ORDER

it is ORDERED that:
For the reasons stated in the accompanying Memorandum Opinion.
Makdessi’s Rule 60(b) & (d)(3) Motion is an unauthorized, successive § 2254
1.
petition;
is DIRECTED to assign the successive, unauthorized § 2254 petition
The Clerk is
(ECF No. 75) a new civil action number;

2.

•The action
4.

is DISMISSED W1T.H0.UT PREJUDICE for want of jurisdiction, and,

A certificate of appealability is DENIED.

Should Makdessi desire to appeal, a
(30) days of the date of entry hereof.

written notice of appeal must be filed within thirty

Failure to file a written notice of appeal within that period

may result in the loss of the ability to appeal.
The

Clerk is DIRECTED to send the Memorandum Opinion and Final Order to

Makdessi.
It is so ORDERED.

W
M. Hannah [.aViCK^ ^
United States District Judge

jw- n,

°

ipv
Date:
Richmond, Virginia

FILED: July 6, 2021
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

K

No. 20-7824
(3:09-cv-00214-M.HL)

ADIB EDDIE RAMEZ MAKDESSI, a/k/a Eddie Makdessi
Petitioner - Appellant
}

v.
BRYAN WATSON, Warden of Wallens Ridge State Prison
Respondent - Appellee

ORDER

!;

The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en'banc and motion for appointment of counsel.
i

For the Court
ls/ Patricia S. Connor, Clerk

*■

, Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 1 of 37 PagelD# 308

^PPEAlDlX

u

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
ADIB EDDIE RAMEZ MAKDESSI,
Petitioner,
v.
Civil Action No. 3:09CV214

BRYAN WATSON,
Respondent.
MEMORANDUM OPINION

Petitioner, a Virginia prisoner proceeding pro sey filed this petition for

a writ of habeas

corpus pursuant to 28 U.S.C. § 2254. Respondent has filed a motion to dismiss, to which Petitioner
has replied. This matter is ripe for judgment.

I.

background

Petitioner is currently serving two life sentences for first-degree murder for the May 14,
1996 killings of Elise Makdessi, his wife, and Quincy Brown, Elise’s co-worker at Naval Air
Station Oceana (“NAS Oceana”). Petitioner is also serving an additional thirteen years for two
firearm crimes in conjunction with the incident. Petitioner has always maintained that Brown
assaulted him and tied him up as Petitioner and Elise returned to their apartment from dinner

, and

that he shot Brown in self defense while Brown was raping and stabbing Elise. Petitioner
claimed that Brown and other individuals sought to prevent Elise from reporting that NAS
Oceana personnel had sexually harassed and raped her previously. The Commonwealth argued
that Makdessi killed Elise to collect her two life insurance policies, fabricated evidence that Elise
had been raped, and tampered with the Crime scene.
The Unusually complex background to Petitioner’s conviction spans over ten years.

*“

, Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 2 of 37 PagelD# 309

A.

Events Prior to the Killings
At the time she was killed, Elise Makdessi and Petitioner had been married for

approximately five years. Elise was stationed at Naval Air Station Oceana in Virginia Beach,
Virginia, where she was being trained as an air traffic controller. In early 1996, Elise was
transferred to an office job in the quarterdeck.
On April 9,1996, Petitioner and Elise met with Attorneys Jack Ferebee and Josephine
Clay. They sought advice about filing a complaint of sexual harassment and possible rape
against the Navy, but would not give any specific details or names. Petitioner called Clay on
April 14,1996, and left a message asking if she would represent Elise. When Clay returned
Petitioner’s call the following day, the cellular phone was turned off. Petitioner and Elise did not
speak with Clay or Ferebee again.
In April 1996, Petitioner and Elise each purchased a $500,000 life insurance policy
naming the other as beneficiary. (Trial Tr. 1040-46.) Petitioner and Elise purchased an
additional coverage agreement that covered them during the pendency of their application.
Additionally, in May of 1996, Navy death benefits doubled from $ 100,000 to $200,000.
Sometime in mid-to-late April, the Makdessis stopped at the home of their friends Terry
and Lisa Swafford. Petitioner told the Swaffords that they had received threatening telephone
calls, and that the tires on their car had been slashed. Petitioner told the Swaffords that Elise had
been having problems at work. Elise did not provide specifics or disclose the names of any co­
workers, but led the Swaffords to believe that high ranking officers were involved. Petitioner
told them that “this would be as big as Tailhook or bigger.” (Pet. Ex. 15, at 2.)' Elise told the
The Court has corrected any capitalization errors in Petitioner’s submissions.
2

*

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 3 of 37 PagelD# 310

Swaffords that she had been transferred out of her previous position after filing a complaint at
work. Lisa recommended that Elise make a videotape documenting her complaints. Petitioner
informed Lisa that he and Elise had already contacted an attorney, who had advised them to get
more evidence before taking any legal action
On April 24, 1996, Petitioner and Elise met with Anne Hunter, a licensed professional
counselor. Petitioner made the appointment in his own name, later explaining to Hunter that he
wished to keep Elise’s problems secret from the Navy. During the session, Petitioner stated that
he and his wife had been drifting apart during the previous two months. Elise stated that she had
been sexually harassed and, approximately three months prior to the appointment, raped by an
officer in her command. Elise also reported that she and Petitioner had received threatening
phone calls, and that the tires on their car had been slashed. Hunter determined that Petitioner
and Elise showed signs of depression, and referred them to another doctor, who prescribed
antidepressants for Elise. The Makdessis later cancelled a follow-up appointment.
Around May 3, 1996, Elise made a videotape alleging several incidents of sexual
harassment and rape. Elise claimed that, approximately two months after her arrival at NAS
Oceana, two men in a cafeteria on base taunted her about being married to an Arab and
subsequently fondled her. She reported the incident to her section leader, who warned her that if
she made a written report she would not prevail and would also be disciplined for making a false
accusation. Later, in January of 1996, an unnamed petty officer second class came into a room
she was cleaning and raped her. Elise tried to report the incident, but was told to keep quiet
because her assailant had used a condom and she could not prove anything. Elise was then
transferred away from her position in the control tower to k desk job answering phones in the
3

,^

, Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 4 of 37 PagelD# 311

quarterdeck. Three weeks after her transfer, Elise was raped in the woman’s bathroom by an
unn amed male petty officer first class, who warned her that she and her husband could get hurt
unless she kept quiet. Elise claimed that she had been collecting written reports of rape from
other Navy women in similar circumstances, and that she would soon have enough evidence to
send to the media. Elise stated that she had not identified any of her assailants because she
feared Petitioner might take the law into his own hands.
Petitioner and Elise visited Elise’s family on the weekend before Elise was killed. On
Thursday, May 9,1996, the Makdessis drove to Washington, D.C. to visit Elise’s sisters. On
Friday, May 10, the Makdessis flew to New England to visit the rest of her family. They
returned at approximately 7 p.m. on Monday, May 13, 1996. At 8:16 p.m. that night, Elise
bought a .38 caliber revolver. Petitioner was present at the purchase.
On May 14,1996, Elise and Quincy Brown worked a twelve-hour shift together. Elise
and Petitioner went out for dinner at Aldo’s restaurant. During dinner, Elise made a long call on
a pay phone.2 Brown’s cell phone records revealed that he had called the land-line telephone in
the Makdessi apartment three times at approximately 9:35 P.M.3
B.

Killings of Elise Makdessi and Quincy Brown
At 9:54 p.m. on May 14, 1996, emergency personnel were dispatched to Petitioner’s

residence in response to his 911 call. On arrival, officers from the Virginia Beach Police
Department (“VBPD”) found Petitioner walking down an external stairwell leading to the second
2 Petitioner maintains that Elise never made a call at dinner.
The first call connected, but lasted only four seconds. The second call Occurred
approximately twenty seconds after the first, and was not answered. The final call was connected
and lasted two minutes and ten seconds. (Trial Tr. 1020-21, 1029.)
4

*

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 5 of 37 PagelD# 312

floor of the building. The officers found Elise bound to the bed. Elise was bleeding from two
stab wounds to her torso, and her throat had been slashed. Quincy Brown had been shot in the
chest and abdomen three times. Police pronounced Brown dead at the scene. Elise died on the
way to the hospital. Autopsies revealed the presence of Brown’s sperm in Elise’s vagina.
Police found Brown lying on his back near the bed. Police recovered a bullet from the
floor underneath Brown. Forensic investigator Elizabeth Dunton recovered a blood-covered
knife under Brown’s hand. The blood on the blade was primarily Elise’s, while the blood on the
handle belonged primarily to Brown. There was no sign of forcible entry into the apartment.
Police recovered electrical cords that had been cut from a videotape rewinder and a
humidifier in the Makdessis’ home. A roll of toilet paper recovered from the bathroom contained
a smear of Brown’s blood. A Luminol test of the bathroom sink indicated that blood was present
in the sink, although none was visible to the naked eye. Brown’s jacket was on a chair in the
living room, an unused condom in the pocket. Brown’s cellular phone was in his truck.
A paramedic treated Petitioner at the scene. Petitioner said that he had been struck in the
head and could not remember what had happened, but had never lost consciousness. Petitioner
A

was not suffering from any “gross obvious bleeding.” (Trial Tr. 529.) Paramedics took
Makdessi to the hospital. Petitioner told Dr. Harry Lustig that someone struck him on the head
as he entered his home, knocking him unconscious. Lustig’s examination revealed a small bruise
on the right side of Petitioner’s scalp.
C.

Events Occurring Between the Murder and Petitioner’s Indictment
Petitioner was not immediately charged in connection with the deaths of Elise and

Brown, in part because a VBPD forensic investigator concluded that the crime scene was
5

,>.

, Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 6 of 37 PagelD# 313

consistent with Petitioner's version of events. Accordingly, the Navy paid Elise's death benefits
and New York Life Insurance paid Elise's policy in 1996. A Naval Criminal Investigative
Service investigator later recommended to the VBPD that they contact Ross Gardner,

a blood

spatter analyst for the Army’s Criminal Investigation Division. In August of 1998, Gardner filed
a preliminary report explaining that the crime scene was not consistent with Petitioner’s

version

of events.
In the meantime, Petitioner left Virginia Beach and returned to Massachusetts to be n ear
his parents. On August 25, 1996, Petitioner called the police in Massachusetts and claimed that
gunmen had run his car off the road, set it on fire, and shot Petitioner. The gunmen told
Petitioner that he should have kept his mouth shut.4 Police were reportedly skeptical because,
although there were wounds m Petitioner’s stomach, his skin had not been penetrated by a bullet.
On September 14, 1996, Petitioner called police reporting that he had just been kidnaped,
shot and left for dead by two or three individuals. Petitioner claimed that the individuals forced
him into the back of his truck, drove him to a remote location, shot him twice, and then drove
away in a car waiting at the scene. Petitioner was unhurt, however, because he was wearing a
bulletproof vest at the time. Petitioner’s truck was somehow5 sent over the edge of a cliff, where
it landed approximately 100 feet below. Petitioner jumped out of his truck, clutching his cellular
phone, and called police. According to the Commonwealth, Massachusetts police found
evidence that the incident was staged. Petitioner was charged with making a false report in
connection with this incident. (Pet. Ex. 19.)
4 Descriptions of the events are taken from the Commonwealth’s proffers at hearing s on
September 28,2004, and January 12,2005.
5 It is unclear whether Petitioner claimed that the gunmen ran his truck off the cliff while
he was driving or that the truck was already partly off the cliff and fell when Petitioner entered it.
6

v

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 7 of 37 PagelD# 314

In December of 1996, Petitioner left the United States to visit his grandmother in Syria.
He returned on January 7, 1997. Near the end of February 1997, Petitioner was deported to
Syria. Approximately eighteen months later, Petitioner met a Russian woman whom he married
one month later. They lived in Lebanon together for a year before moving to Moscow.
On March 30,2001, Petitioner called Nancy Perry, Hlise’s aunt. According to Ms. Peny,
Petitioner told her about his new family and informed her that he had a daughter. Petitioner also
told her that he had written the story of the events surrounding Elise’s death and sent it to several
newspapers in the United States, who had not published it. Ms. Perry asked for a copy, which
Petitioner sent to her the next day.6 That story was captioned “The Unbeleivable [sic] True
Story.” The document purported to relate Petitioner’s version of the cover-up surrounding his
wife s death. The document claims that three men were involved in the attack - one was holding
Elise down, one was tying her up, and one was raping her. The document also contained a claim
that an unidentified Navy officer contacted Petitioner telling him that Admiral Jeremy Boorda
had not committed suicide. The Navy officer claimed that Admiral Boorda had been shot twice
in the chest because he was “going to make a statment [sic] and speak to the media about every
thing [Elise] and all the females” had experienced, and that the attacks could have been
committed by “the other two persons involved in the attack on [Petitioner’s] wife.” (Pet. Ex. 6,
at 3-4.) Ms. Perry contacted the VBPD shortly after receiving this e-mail.
On May 7,2001, a grand jury indicted Petitioner on two counts of first degree murder,
one count of using a firearm in commission of a felony, and one count of maliciously discharging
6 Although Petitioner now claims that the document is fraudulent, Petitioner stipulated at
trial that he e-mailed Ms. Perry a copy of the story the day after he told Ms. Perry that he would
do so.
7

*

, Case 3.09-CV-00214-RLW Document 17 Filed 02/04/10 Page 8 of 37 PagelD# 315

a firearm in an occupied building. Petitioner subsequently learned from Mike Mather, a reporter
who had covered the killings, that he had been indicted. On August 19,2003, Makdessi
voluntarily returned to the United States, where he was immediately arrested.
II. PROCEDURAL HISTORY
A.

Pretrial Events
Although Petitioner was arrested upon his return from Russia on August 19,2003

Petitioner’s trial did not begin until March 6,2006. Because some of Petitioner’s claims relate to
pretrial issues, the relevant events are recounted here.
1.
■j

September 28,2004 Hearing - Motions In Limine on the Admissibility of the
Videotape and the Massachusetts Evidence; the Prosecution’s Improper
Contact with Witnesses; Withdrawal of Motions to Dismiss and to Quash

Petitioner was initially represented by public defenders Peter Legler and Annette Miller.
On September 28,2004, Legler and Miller (“the public defenders”) appeared at a hearing at
which Petitioner was not present.7 At this hearing, the parties argued motions in limine regarding
the videotape and the Massachusetts evidence. The parties both argued that their evidence was
independently admissible; nevertheless, they also agreed with the Circuit Court that the
admission of either party’s evidence would make the other’s admissible in rebuttal. The Circuit
Court, considering the all-or-nothing nature of admissibility in this case, remarked that admitting
all of the evidence would result in a mini-trial on collateral matters that would “look like a
circus (Sept. 28, 2004 Tr. 28) and could "make the Scott Peterson trial look simple” (Sept. 28,
2004 Tr. 31). Legler advocated that all of the evidence be kept out, explaining that the inclusion

7 At the various hearings in this case, the public defenders often have argued together on
the same issue. For the sake of convenience, they are referred to jointly in this opinion.
8

, «■

. Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 9 of 37 PagelD# 316

of the Massachusetts evidence would make the charges “[unbelievably difficult for this
defendant to defend against” because Petitioner would effectively be on trial for two sets of
crimes. (Sept. 28,2004 Tr. 35.) The Court ruled that neither evidence would be admitted at trial.
The Commonwealth’s Attorneys also admitted at this hearing that they had sent many
witnesses copies of their 1996 witness statements. The public defenders argued that the
Commonwealth was attempting to circumvent Virginia’s bar on the admission of a prior
statement that had not been verified while the events were still fresh in the mind of the witness.
As a remedial measure, the Circuit Court ordered reciprocal discovery of all witness statements,
The public defenders also withdrew the motions to dismiss and quash the indictments because
“there would be no point in proceeding.” (Sept. 28,2004 Tr. 2.)
2.

Hearings of November 1,2004, November 22, 2004, and November 29,2004 Petitioner’s Motions to Substitute Counsel and to Proceed Pro Se

On November 1, 2004, the Circuit Court held a hearing to address Petitioner’s motion to
substitute counsel. Petitioner, who had filed a bar complaint against the public defenders,
explained that they refused to send him copies of discovery or keep him informed of court dates,
and would not communicate adequately during visits to jail, which occurred only every four
months or so. Petitioner also challenged counsel’s decision to withdraw the motion to dismiss,
and their disregard of his order to admit the videotape at all costs. The public defenders opposed
the motion, explaining that they had invested hundreds of hours in Petitioner’s case and had
*

visited him at least fourteen times, with only one session lasting less than half an hour. They also
explained that, in their opinion, the motion to dismiss would not have been granted. The Circuit
Court denied Petitioner’s motion.

9

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 10 of 37 PagelD# 317

At a hearing on November 22,2004, Petitioner made a motion to proceed pro se. The
Commonwealth’s Attorney argued strenuously against the motion. After warning Petitioner of
the dangers of self-representation, the Circuit Court scheduled a second hearing for November
29,2004.
3.

Period of Pro Se Representation: November 29,2004 to January 19,2005

At the hearing of November 29,2004, the Circuit Court granted Petitioner’s motion to
proceed pro se. The Circuit Court denied Petitioner’s request to appoint different attorney s as
standby counsel. Petitioner then asked the Court to confirm his understanding that he could enter
the videotape into evidence under certain circumstances. The Circuit Court declined to do so,
^

stating instead that its earlier ruling was still in effect and would control.
At a motions hearing on January 4,2005, Petitioner asked the Circuit Court to enter an
order increasing his access to the law library. Petitioner explained that he was unable to
effectively represent himself because Virginia Beach Correctional Center (“the Jail”) did not
have a law library. An employee of the Virginia Beach Sheriffs Department explained the
/

procedure used at the Jail:
Sir, when an inmate needs legal materials, they are to write
a correspondence form to our librarian.... If the information is not
available on the internet, [the librarian] then goes over to the
Wahab law library, obtains the material, makes copies of it, and
delivers it to the inmate.... [The librarian] works thirty-six hours
a week. I’m guessing that it would take probably less than seven
days to get the material to the inmate.
(Jan. 4,2005 Tt. 3-4.) Petitioner claimed that this procedure unfairly forced him to divulge his
trial strategy to the Commonwealth. The Circuit Court extracted a promise from the

10

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 11 of 37 PagelD# 318

Commonwealth that no one had spoken with the librarian to discover what cases were requested,
and that no one would do so in the future.
Petitioner also argued that the Jail was violating his rights by not providing any legal
materials unless Petitioner provided the proper citations. Petitioner also provided evidence that
the librarian gave him law from the United Kingdom in response to his request for information
on the hearsay rule. The Court explained that Petitioner should “ask him for different periodicals
for specific cases,” and that he would not be allowed to visit the law library. (January 4,2005 Tr.
7.) The Court ordered Petitioner to follow the Jail’s existing procedures.
Petitioner then complained that the public defenders had not provided him with all of the
relevant information in his case, including expert witness names. They responded that they had
given him all of the discovery provided by the Commonwealth, and that Petitioner had not
provided a list of experts he desired to use. Petitioner also complained that the public defenders
had not responded to his requests for a visit at the jail. Ms. Miller responded that Petitioner had
not actually requested help preparing his case. Instead, he had asked her to “come over and
explain [her] past decisions,” which was not an appropriate reason to meet with Petitioner as
standby counsel. (Jan. 4,2005 Tr. 15.)
At a hearing on January 12,2005, Petitioner moved the Court to reverse its earlier ruling
and allow both the bad acts evidence and videotape to be admitted into evidence. Petitioner
argued that the videotape was admissible as an exception to the hearsay rule because it was a
dying declaration, an excited utterance, and an assertion of Elise’s state of mind. The Court
again ruled that the videotapes were not admissible, and that the bad acts evidence was not
admissible in the Commonwealth’s case in chief. After Petitioner observed that self11

»

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 12 of 37 PagelD# 319

representation was “way too much for me” (Jan 12,2005 Tr. 22), Mr. Legler agreed that they
could explore the possibility of resuming their representation of Petitioner. At a status hearing
on January 15,2005, Mr. Legler and Ms. Miller informed the court that they were once again
representing Petitioner.
4.

Second Period of Representation by the Public Defenders

Petitioner s dissatisfaction with the public defenders continued. At a hearing on March 7,
2005, Petitioner requested the appointment of new counsel. Petitioner explained that the public
defenders were urging him to attempt to reach a plea agreement, and that Petitioner believed the
public defenders had decided that he was guilty. The Court explained that Petitioner had only
two choices: to represent himself, or to accept representation by the public defenders. At a
hearing on March 16,2005, Petitioner again moved for the Circuit Court to appoint new
attorneys. The Circuit Court refused to do so, and because Petitioner would not waive his right
to counsel, the public defenders continued to represent him.
5.

Withdrawal of Public Defenders and Appointment of Thomas Reed

On Januaiy 3,2006, the Circuit Court granted the motion of the public defenders to
withdraw, and appointed Thomas Reed to represent Petitioner at trial. (Jan. 3,2006 Tr. 2-3.)
The public defenders office later explained that they moved to withdraw “after the
Commonwealth decided to utilize current and former public defender clients as ‘snitches’ in its
case.” (Oct. 7,2008 Letter, Respt.’s Ex. A., Record No. 081529 (Sup. Ct. Va.).)
B.

Trial and Conviction
Petitioner’s trial began on March 6,2006, and ended with his sentencing on March 16,

2006. The Commonwealth presented 51 witnesses. Petitioner testified in his own defense, but
12

1

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 13 of 37 PagelD# 320

produced no other witnesses. An overview of the events of trial will help the reader comprehend
the volume and persuasive power of the evidence presented against Petitioner.
1.

Evidence from Co-workers, Acquaintances, and Family of the Makdessis

Many of Elise’s co-workers testified that Elise lacked practical skills, and that she had
been transferred in order to prevent her from logging too many training hours and washing out of
the program. They also testified that they would have reported any sexual harassment pursuant
to the Navy’s policy if they had been aware that any had occurred.
Various friends and family testified to the unusual relationship between Elise and
Petitioner; According to them, Petitioner discussed having extramarital affairs. Robert Mentzer
testified that Petitioner kept in his wallet a list of phone numbers of exotic dancers, and bragged
about it in Elise’s presence. Several witnesses testified that Petitioner mentioned making or
attempted to show them homemade pornography (featuring Elise and others) and other sexually
explicit material, sometimes in Elise’s presence. Neighbors testified that the Makdessis argued
loudly enough to be heard from adjacent apartments. Witnesses also testified that Petitioner
believed Elise was having extramarital affairs, and was an angry and jealous husband who
insisted on keeping track of Elise’s whereabouts and driving her everywhere. Daniel Timboe, a
friend, testified that he and Petitioner had once gone on a double date with their wives. Upon
arriving at the Makdessis’ apartment that evening, Timboe was surprised to discover that
Petitioner had hired strippers to perform at his house before they left for the evening.
Alex Crosby, Elise’s brother, testified that Petitioner had urged Elise to discuss her workrelated troubles during their visit the weekend before the killings. Elise, however, did not do so.
Kevin Heaney, a claims director at New York Life Insurance Company, reported that
Petitioner called him almost daily for approximately three months from June 1996, when
13

, *•

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 14 of 37 PagelD# 321

Petitioner submitted his claim, until the claim was paid. Daniel Timboe, a friend, testified that
Petitioner had once asked him to rear-end Petitioner’s car as part of an insurance fraud scheme.
Several witnesses testified that Petitioner had a large collection of guns and hunting kni
2.

ves.

Testimony Regarding Inconsistencies in Petitioner’s Versions of the Killings

Detective Paul Yoakam interviewed Petitioner on the night of the killings. Petitioner
explained that he had called Robert Mentzer from Aldo’s restaurant On his cellular phone, but
neither he nor Elise made any other telephone calls at the restaurant. Petitioner told Yoakam that
a single man assaulted him from behind as Petitioner was trying to close his front door.
Petitioner woke up on the bedroom floor and saw a man raping and stabbing his wife. Petitioner
reported that his hands were bound when he awoke, and that Elise used her assailant’s full name
as she begged for mercy. As Petitioner reached the bedside table and retrieved his gun, the man
leapt from the bed and Petitioner shot him from a standing position. The assailant fell to his
knees, moaning. Petitioner walked around the bed, attending to Elise. As Petitioner walked to
the telephone, the assailant lunged at him. After a brief struggle in which the assailant nicked
Petitioner on the hand with his knife, Petitioner shot the assailant once or twice more. Petitioner
then called 911 on his cordless phone. Petitioner, in a state of shock, looked around for a
compress and picked up a roll of toilet paper from the bathroom, but decided that it would not
serve. According to Petitioner, the assailant was a black man whom he did not recognize.
During a subsequent interview, Petitioner claimed that he was struck in the head twice as he was
disarming his alarm system, and that he was on his knees when he shot the assailant.
Dr. Harry Lustig, who treated Petitioner at the hospital on the night of the killings,
testified that Petitioner told him that he obtained the gun from his closet, not the bedside table.

14

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 15 of 37 PagelD# 322

Restaurant staff testified that Elise made two telephone calls from Aldo’s the night of her
death, the second of which lasted approximately forty minutes. Mentzer also testified that

, on the
night of the killings, Petitioner called him on his cellular phone from Aldo’s, and told him that
Elise was on a pay phone at the time.
Dawn Crosby testified that Petitioner initially told her that there

may have been two

individuals, and that the sliding glass door to their balcony was open. Alex Crosby and Nancy
Perry testified that Petitioner first told them that there was one assailant, but later added a second.
Timothy Gurley, with whom Petitioner had been incarcerated at the Jail, testified that
Petitioner admitted to killing his wife, but claimed that Elise and Brown were having sex when
he entered the house, and that he shot Brown and stabbed Elise. Gurley also testified that
Petitioner claimed to have stabbed another man at the scene.
3.

Forensic Testimony

Dr. Leah Bush performed autopsies on Elise and Brown. She testified that three of
Elise s wounds were consistent with a knife whose edge was pointing towards Elise’s head, not
her feet. Elise showed no signs of genital trauma. Michael Grimm, Forensic Science Supervisor
of the Virginia Department of Forensic Science, testified that bloodstains on Petitioner’s p
were consistent with him having wiped the knife on his pants and that some of the stains

ants

were

diluted, which could indicate that Petitioner had attempted to obliterate the stains.
Ross Gardner provided the most important forensic testimony. At the time of the trial,
Gardner was an independent consultant in bloodstain pattern crime scene analysis. Gardner had
amassed many credentials in his 29-year career, and attended over 1,000 hours of specialized
bloodstain pattern analysis training. Gardner sent the Virginia Police a preliminary report in
August of 1998 and completed a final report in August 2000.
15

*.

.Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 16 of 37 PagelD# 323

Gardner’s analysis of the crime scene contradicted nearly every aspect of Petitioner’s
version of the killings. Gardner testified that Brown was on his knees when he

was first shot.

He testified that the second shot was fired when Brown was either falling or standing. Gardner
concluded that Brown was lying on the ground when the final shot occurred. He also testified
that the shots could not have originated from where Petitioner claimed to have been standing.
Gardner also testified regarding blood patterns found on and made by the knife. He
pointed out that stains on Petitioner’s pants were inconsistent with a struggle with Brown.
Moreover, diluted bloodstains on Petitioner’s pants indicated that the hilt of the knife had been
washed. Gardner testified that Brown’s hands were covered with his own blood, not with
Elise’s. The hilt of the knife, however, had a mixture of blood from both Elise and B
rown,

ftirther indicating tampering. Spattering on the knife was inconsistent with Brown having
wielded it when he was shot, but consistent with Petitioner holding it. Gardner concluded that
there was no evidence that Brown was ever in possession of the knife.
Other blood patterns on the comforter were inconsistent with Brown’s presence on top of
Elise because the blood had not pooled towards the area where Petitioner claimed Brown had
been. Finally, Gardner concluded that there was no evidence of blood flow from Petitioner near
the area where he claimed to have woken up after the alleged assault.
4.

Petitioner’s Testimony

Petitioner repeatedly brought up Elise’s alleged complaints of sexual assault, resulting in
objections from the Commonwealth as to hearsay, which were sustained. He claimed never to
have discussed the possibility that Elise was having an affair with anyone. According to him, he
and Elise had a very happy marriage, and she frequently drove herself to work. He denied

16

■ v

.Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 17 of 37 PagelD# 324

approaching Timboe about any insurance fraud scheme, and claimed that it was Timboe’s idea to
have strippers over to Petitioner’s house before the dinner date.
Petitioner claimed that, on the night of the killings, he was attacked from behind while
disarming the alarm at his apartment and knocked out. When he awoke, he was bound and his
eyes refused to focus. As he struggled to free himself, he heard Elise arguing with two

men.

One of the men was telling Elise that “I want all the copies of the charges. You f-ing bitch. You
shouldn’t have done that. We told you, we warned you to leave it alone. I want all copies of the
videotapes you made. I want all copies of affidavits and

(Trial Tr. 1500.) Elise told her

attackers that there were six envelopes in the closet. Petitioner heard someone go to the closet,
take something out, and leave. Petitioner then heard a struggle between Elise and her assailant.
Petitioner s eyes cleared shortly thereafter. He saw Brown raping Elise while asking why
she had filed charges against him, and telling her she should have left it alone. Petitioner freed
himself, crawled to the nightstand, opened the drawer, and took the gun inside. Brown noticed
Petitioner as he stood. Brown charged at Petitioner, nearly tripping because he was pulling up
his shorts. Petitioner shot Brown once, and thought he heard someone run out the door after the
shot. When Petitioner shot him, Brown was “sort of kneeling, pulling up his shorts, and then he
dropped down on his knees when I shot him.” (Trail Tr. 1511.) Petitioner walked around the
bed, attempting to untie Elise’s bindings, but was unable. When he walked around to the other
side of the bed, Brown sprung up and lurtged at him, knife still in hand. Petitioner grabbed
Brown’s right hand, which held the knife, and Brown grabbed Petitioner’s right hand, which held
the gun. Petitioner broke free and shot Brown twice more.
Petitioner called 911 on his cordless phone. While on the phone, he began to feel sick,
and flushed the toilet because he thought he was about to vomit. Petitioner saw in the bathroom
17

»,

Case 3:09-CV-00214-RLW Document 17 Filed 02/04/10 Page 18 of 37 PagelD# 325

mirror that he was bleeding from a head wound, and put some toilet paper on the

wound to

staunch the flow of blood. On cross-examination, Petitioner first stated that he had tried to put
his hands on Elise's wounds. However, he later testified that he had not put his hands

on her

chest wounds, and did not remember if he had put his hands on her neck.
Petitioner claimed that during the initial interview, Detective Yoakam told him that the
police did not find a second attacker, and that Petitioner would be arrested

and held if he kept

saying that anyone else was present. Yoakam told Petitioner to simply answer the questions
asked of him. Petitioner denied ever telling Gurley that he had killed Elise.
The following exchange between Petitioner and the Commonwealth’s attorney occurred
regarding the story sent to Nancy Perry:
Q: Well, what about this unbelievable true story that you sent to
Nancy Perry and the newspapers?
A. That s not the first that I wrote .... There was another story I
wrote there was five people .... I’ve lost a lot of sleep having
nightmares. ... And when I wake up, I believe what I saw in that
nightmare. So that nightmare would say I saw five people. Then I go
on the whole entire day thinking that there was five.. . .. people’s
names on the list -Q: All right. All right....
\

Q: Did you write the unbelievable true story? Did you write this, the
e-mail that was sent to Nancy Perry?
A: I’m not sure if I wrote that.
Q: You don’t remember?
,
A: No.
Q: So if it says my name is Eddie Makdessi and I was bom in
Lebanon, Beirut, you don’t know if you wrote that?
A. Well, I can type a paper with your name on it and say you wrote
it. It doesn’t mean that you wrote it, does it?
(Trial Tr. 1584-86.)
The jury found Petitioner guilty on all counts. On March 16,2006, the Circuit Court
sentenced Petitioner to two life sentences plus thirteen years.
18

»

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 19 of 37 PagelD# 326

C.

Appellate Proceedings
On appeal, Petitioner raised the following claims:
Claim One:

The Circuit Court violated Petitioner’s rights under Chambers* by
applying the hearsay rule to exclude Elise’s videotape and affidavit.

Claim Two:

The Circuit Court violated Petitioner’s right to access the courts by
denying him meaningful access to a law library,

Claim Three: The Circuit Court erred in not allowing Petitioner to testify as to Elise
Makdessi’s complaints of sexual mistreatment.
Petition for Appeal, Makdessi v. Commonwealth, Record No. 0898-06-1, at 17 (Va. App. July 28,
2006) (hereinafter “App. Pet.”). The Court of Appeals of Virginia affirmed Petitioner’s
conviction, finding Claims One and Two barred because they had not been properly raised at
trial. Makdessi v. Commonwealth, Record No. 0898-06-1, at 8-12 (Va. App. Dec. 6, 2006)
(hereinafter “App. Ct. Op.”). Claim Three was dismissed without consideration because the
petition for appeal did not contain any argument or citation to authority in support. Id. at 12.
Petitioner, by counsel, filed a petition for rehearing by a three-judge panel. The petition
was granted and, after oral argument, the panel denied Petitioner’s claims. Makdessi v.
Commonwealth, Record No. 0898-06-1, at 3 (Va. App. Apr. 6,2007). The Supreme Court of
Virginia refused to hear Petitioner’s appeal. Order, Makdessi v. Commonwealth, Record No.
0898-06-1 (Va. Sept. 10,2007). On November 9,2007, the Supreme Court denied the
subsequent petition for rehearing. Order, Makdessi v. Commonwealth, Record No. 0898-06-1, at
3 (Va. Nov. 9,2007).

8 Chambers v. Mississippi, 410 U.S. 284, 302 (1973) (finding a due process violation
where lower court “mechanistically” applied hearsay rule to exclude evidence of later-repudiated
confessions that bore substantial indicia of reliability).
19 .

. *•

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 20 of 37 PagelD# 327

D.

State Habeas Proceedings
On August 7,2008, Petitioner filed a petition for a writ of habeas corpus in the Supreme

Court of Virginia. Petitioner raised the following claims for relief:
Claim A:

(1)

(2)

Trial counsel Legler and Miller rendered ineffective assistance by:
(a)
allowing the court to continue the trial date;
(b)
failing to adequately communicate for fifteen months; and,
■(c)
failing to be present at a March 8,2004 hearing regarding ’
the Commonwealth’s attempt to subpoena the records of
reporter Mike Mather.
Trial counsel Thomas Reed rendered ineffective assistance by:
(a)
failing to make an adequate investigation into his case;
(b)
failing to make any motions to admit evidence;
(c)
failing to adequately meet with Petitioner;
(d)
lying about his failure to subpoena witnesses;
(e)
failing to elicit from Robert Mentzer during cross
examination that Mentzer was granted immunity from
prosecution for Elise’s death in return for his
testimony;
(f)
failing to object to perjury and evidence tampering by
Elizabeth Dunton;
(g)
failing to prove that, due to peijury regarding where
Petitioner’s wife was laid for treatment, the blood spatter
expert, R. Gardner, incorrectly testified as to Petitioner’s
lack of wounds;
(h)
failing to object to the admission of the fraudulent
“unbelievable true story” through Nancy Perry; and,
(i)
failing to object, during closing argument, to the
prosecutor’s statement that Elise had been shot.

Claim B:

The Prosecutor committed misconduct by:
(1)
allowing peijurious testimony from:
(a)
Elizabeth Dunton;
(b)
Ross Gardner; and,
(c)
Nancy Perry.
(2)
falsely stating during closing argument that Elise had been shot.

Claim C:

The trial court violated Petitioner’s right to proceed pro se under Faretta
v. California, 422 U.S. 806 (1975).

Claim D:

The trial court violated Petitioner’s rights under Chambers by refusing to
allow Petitioner to introduce hearsay evidence that Elise had been
sexually assaulted and feared for her life.
20

.i

Case 3:09-cv-00214-RLW. Document 17 Filed 02/04/10 Page 21 of 37 PagelD# 328

Claim E:

Petitioner’8 right to access the courts was violated by the lack of access to
the law library and materials.

Claim F:

The Circuit Court violated Petitioner’s right to testily by refusing to allow
him to testify as to his wife’s statements that she had been sexually
assaulted.

Claim G:

Reed violated Petitioner’s right to obtain witnesses in his favor by failing
to subpoena nine witnesses requested by Petitioner.

Claim H:

Petitioner s constitutional right to a speedy trial was violated.

Claim I:

Appellate counsel rendered ineffective assistance by failing to claim that:
0) trial counsel rendered ineffective assistance;
(2)
the Commonwealth’s Attorneys committed misconduct;
(3)
Petitioner’s conviction was obtained by use of the fraudulent
confession contained in the “unbelievable true story”;
(4)
Petitioner’s right to obtain witnesses was violated; ’
(5)
Petitioner’s constitutional right to a speedy trial was
violated; and,
(6)
the Prosecutor violated Petitioner’s Brady 9 rights.

Petition, Makdessi v. Warden of the Wallens Ridge State Prison, No. 081529 (Va. Aug. 7,2008)
(hereinafter “State Hab. Pet.”). The Supreme Court of Virginia dismissed the petition on March
16,2009. Makdessi v. Warden of the Wallens Ridge State Prison, No. 081529 (Va. Mar. 16,
2009) (hereinafter “State Hab. Op.”). The Supreme Court of Virginia found that Petitioner’s
claims of ineffective assistance of counsel lacked merit, and that the remaining claim s were
barred by Petitioner’s failure to properly raise them at trial or on appeal.
E.

Claims Raised in the Federal Habeas Petition
Petitioner advances the following claims for relief:
Claim 1:

(A)

Trial counsel Legler and Miller rendered ineffective assistance by:
(i)
allowing the court to continue his trial date;
(ii)
failing to adequately communicate for fifteen months; and,

9 Brady v. Maryland, 373 U.S. 83 (1963).
21

*■

Case 3.09-CV-00214-RLW Document 17 Filed 02/04/10 Page 22 of 37 PagelD# 329

(iii)

(B)

failing to be present at a March 8,2004 hearing regarding
the Commonwealth’s attempt to subpoena the records of
reporter Mike Mather.
Trial counsel Thomas Reed rendered ineffective assistance by:
(i)
failing to make an adequate investigation into his case;
(ii)
failing to make any motions to admit evidence;
(iii) failing to adequately meet with Petitioner;
(iv) failing to subpoena six witnesses requested by Petitioner;
(v)
misrepresenting that he had subpoenaed the six witnesses;
(vi) failing to elicit from Robert Mentzer during cross
examination that Mentzer was granted immunity from
prosecution in return for his testimony;
(vii) failing to object to perjury and evidence tampering by
Elizabeth Dunton;
•
(viii) failing to prove that, due to the perjury regarding where
Petitioner’s wife was laid for treatment, the blood spatter
expert, R. Gardner, incorrectly testified as to Petitioner’s
lack of wounds;
(ix) failing to object to the admission of the fraudulent
“unbelievable true story” through Nancy Perry; and,
(x) failing to object, during closing argument, to the
prosecutor’s statement that Elise had been shot.

Claim 2:

The Prosecutor committed misconduct by:
(A)
Allowing perjurious testimony from:
(i)
Elizabeth Dunton;
(ii)
Ross Gardner; and,
(iii) Nancy Perry.
(B)
Falsely stating during closing argument that Elise had been shot.

Claim 3: .

Petitioner’s right to proceed pro se under Faretta, was violated because:
(A) Petitioner was not provided access to a law library;
(B)
at a hearing on January 12,2005, the Circuit Court “cut him off,”
preventing him from proffering the contents of the videotape and
corroborating witness statements.

Claim 4:

The trial court violated Petitioner’s rights under Chambers by refusing to
allow Petitioner to introduce hearsay evidence that Elise had been
sexually assaulted and feared for her life.

Claim 5:

Petitioner’s right to proceed pro se under Faretta was violated when he
was denied access to the law library and materials.

22

' *•

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 23 of 37 PagelD# 330

Claim 6:

The Circuit Court violated Petitioner’s rights by refusing to allow him
to testify as to his wife’s statements that she had been sexually assaulted.

Claim 7:

Reed violated Petitioner’s right to obtain witnesses in his favor by failing
to subpoena nine witnesses requested by Petitioner.

Claim 8:

Petitioner’s constitutional right to a speedy trial was violated by the 57month delay between indictment and conviction.

Claim 9:

Appellate counsel rendered ineffective assistance by:
(A)
failing to claim that:
(i)
trial counsel rendered ineffective assistance;
(ii)
the Commonwealth’s Attorneys committed misconduct;
(iii) Petitioner’s conviction was obtained by use of the
fraudulent confession contained in the “unbelievable true
story”;
(iv)
Petitioner’s right to obtain witnesses was violated;
(v)
Petitioner’s constitutional right to a speedy trial was
violated; and,
(vi)
The Prosecutor violated Petitioner’s Brady rights.
(B)
failing to inform Petitioner for five months that the Supreme Court
of Virginia had denied his petition for rehearing, causing him to
forfeit his right to file a petition for certiorari and lose time to work
on his state habeas petition.

Claim 10:

The Commonwealth’s Attorney tampered with approximately forty (40)
witnesses by mailing to them their statements taken in 1996, immediately
after the crime.

(Pet. 6-21.) Respondent contends that Petitioner’s claims are all either procedurally defaulted or
without merit.

III. EXHAUSTION AND PROCEDURAL DEFAULT
“In the interest of giving the state courts the first opportunity to consider alleged
Constitutional errors occurring in a state prisoner’s trial and sentencing, a state prisoner must
exhaust all available state remedies before he can apply for federal habeas relief.” Breardv.
Pruett, 134 F.3d 615, 619 (4th Cir. 1998) {citing Matthews v. Evatt, 105 F.3d 907, 910-11 (4th
Cir. 1997)). “To satisfy the exhaustion requirement, a habeas petitioner must fairly present his

23

■

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 24 of 37 PagelD# 331

claim to the state’s highest court.” Matthews, 105 F.3d at 911 (citing Spencer v. Murray, 18 F.3d
237,239 (4th Cir. 1994)). Fair presentation demands that “both the operative facts and the
controlling legal principles must be presented to the state court.” Baker v. Corcoran, 220 F.3d
276,289 (4th Cir. 2000) (,quoting Matthews, 105 F.3d at 911); see Gray v. Netherland, 99 F.3d
158,162-64 (4th Cir. 1996). To exhaust a federal claim, petitioners must alert state courts to the
federal nature of the claim. Baldwin v. Reese, 541 U.S. 27,29 (2004) {quoting Duncan v. Henry,
513 U.S. 364,365-66 (1995)). Thus, “the presentation to the state court of a state law claim that
is similar to a federal claim does not exhaust the federal claim.” Baker, 220 F.3d at 289 {citing
Duncan, 513 U.S. at 366).
A distinct but related limit on the scope of federal habeas review is the doctrine of
procedural default.” Breard, 134 F.3d at 619. “If a state court clearly and expressly bases its
dismissal of a habeas petitioner’s claim on a state procedural rule, and that procedural rule
provides an independent and adequate ground for the dismissal, the habeas petitioner has
procedurally defaulted his federal habeas claim.” Id. {citing Coleman v. Thompson, 501 U.S.
722,731-32 (1991)). Procedural default also occurs when a “petitioner fails to exhaust available
state remedies and ‘the court to which the petitioner would be required to present his claims in
order to meet the exhaustion requirement would now find the claims procedurally barred.’” Id.
{quoting Coleman, 501 U.S. at 735 n.l). Absent a showing of cause and prejudice or a
fundamental miscarriage of justice, this Court is precluded from reviewing the merits of a
defaulted claim. See Harris v. Reed, 489 U.S. 255, 262 (1989).
A.

Claims Improperly Presented on Direct Appeal
Petitioner raised Claim 4 on direct appeal, arguing that the Circuit Court violated his due

process rights “[b]y mechanistically applying the hearsay rule to exclude the videotape and the
24

1

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 25 of 37 PagelD# 332

affidavit, thereby “subverting] [Petitioner’s entire defense in violation of his right to due
process under the Fourteenth Amendment to the Constitution.” App. Pet. at 20. The Court of
Appeals of Virginia found this claim barred by Virginia Supreme Court Rule 5A: 18 because
Petitioner failed to “preserve his constitutional argument with a specific, contemporaneous
objection that his due process rights to a fair trial were violated.” App. Ct. Op, at 6. Rule 5A:18
constitutes an adequate and independent ground for denying a claim. See Clagett v. Angelone,
209 F.3d 370, 378 (4th Cir. 2000). The decision of the Court of Appeals of Virginia bars
Petitioner’s claims unless Petitioner can establish cause for failing to raise it at trial.
Petitioner argues that he personally objected repeatedly to the exclusion of the videotape
evidence. (Petr. Opp’n Mot. to Dismiss 5 (citing Nov. 1,2004 Tr. 7).) Nevertheless, the Court
of Appeals of Virginia correctly determined that “the entire record indicates [Petitioner] never
raised a constitutional argument on any grounds.” App. Ct. Op. 6. Petitioner does not argue that
any other facts establish cause for his failure to raise the claim below. Claim 4 will be
DISMISSED.
In the interest of judicial economy, the Court will address the merits of the remaining
claims presented on direct review. See 28 U.S.C. §§ 2254(b)(2).
B.

1

Claims Found Barred on State Habeas Review
The Supreme Court of Virginia found Claims 2, 6, 7, and 8 barred by Slayton v. Parrigan,

205 S.E.2d 680 (Va. 1974), because they could have been, but were not, raised on appeal. State
Hab. Op. 12-13. Slayton is an adequate and independent state procedural rule. See Mu’Min v.
Pruett, 125 F.3d 192,196-97 (4th Cir. 1997). Thus, Claims 2,6, 7, and 8 are barred unless
Petitioner can show cause and prejudice. Petitioner argues that counsel rendered ineffective

25

*

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 26 of 37 PagelD# 333

assistance in failing to bring these claims on direct appeal. As discussed below,

counsel’s failure

to raise these claims was not ineffective. Claims 2,6,7, and 8 will be DISMISSED.
C.

Claims Presented for the First Time on Federal Habeas Review
In Claim 9(b), Petitioner claims that appellate counsel failed to timely inform him that his

petition for rehearing had been rejected. Petitioner did not raise the factual basis for this claim in
his state habeas petition. If Petitioner were to file a habeas petition now, the Supreme Court of
Virginia would find it procedurally barred under Section 8.01-654(B)(2) of the Virginia Code
because the underlying facts were available when he filed his first petition. See Barnes v.
Thompson, 58 F.3d 971,977 n.6 (4th Cir. 1995) (explaining that Virginia law bars claims based
on facts which “the petitioner either knew or had available” when the first petition was filed)
(citing Stockton v. Murray, 41 F.3d 920, 925 (4th Cir. 1994); Waye v. Murray, 884 F.2d 765, 766
(4th Cir. 1989). Section 8.01-654(B)(2) is an adequate and independent state ground. See Gray v.
Netherland,5\% U.S. 152,162 (1996). Claim 9(b) will be DISMISSED.
In Claim 10, Petitioner argues that the Commonwealth’s Attorney tampered with the
witnesses by mailing their 1996 witness statements directly to them for review in the course of
preparing for trial. Respondent argues that these claims are procedurally defaulted because they
were never raised in state court. Petitioner claims, however, that he discovered the factual basis
for this claim on April 5, 2009. Petitioner reasons that the “factual predicate” of this claim
therefore “could not have been previously discovered through due diligence” because he was not
present at the hearing at which the Commonwealth admitted sending the statements. (Petr. Opp’n
Mot. to Dismiss 6.) Petitioner’s state habeas petition, however, contains a citation to the
transcript of the September 28,2004 hearings. (Br. Supp. State Hab. Pet. 32.) Petitioner thus
fails to show that these facts were unavailable. Claim 10 will be DISMISSED.
26

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 . Page 27 of 37 PagelD# 334

IV. APPLICABLE CONSTRAINTS ON HABEAS REVIEW
Federal law circumscribes this Court’s power to grant habeas relief. 28 U.S.C.
§ 2254(e)(1) provides that “[s]tate court factual determinations are presumed to be correct and
may be rebutted only by clear and convincing evidence.” Gray v. Branker, 529 F.3d 220,228 (4th
Cir. 2008) (citing 28 U.S.C. § 2254(e)(1)), cert, denied 129 S. Ct. 1579 (2009). Under 28 U.S.C.
§ 2254(d), a federal court may not grant relief on any claim that was adjudicated on the merits in
state court unless the claim:
(1)
(2)

resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law,
as determined by the Supreme Court of the United States; or
resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in
the State court proceeding.

28 U.S.C. § 2254(d). A decision is an “unreasonable application” of Supreme Court law if “the
state court correctly identifies the governing legal principle ... but unreasonably applies it to the
facts of the particular case.” Bell v. Cone, 535 U.S, 685, 694 (2002) (citing Williams v. Taylor,
529 U.S. 362,407-08 (2000)). Demonstrating unreasonableness requires “a substantially higher
threshold” showing than mere error. Schriro v. Landigran, 550 U.S. 465, 473 (2007) (citing
Williams, 529 U.S. at 410). Moreover, “courts are to review the result that the state court reached,
not whether [its decision] [was] well reasoned.” Larry v. Branker, 552 F.3d 356,365 (4th Cir.)
(alterations in original; internal quotations omitted), cert, denied, 130 S. Ct. 408 (2009).
V. INEFFECTIVE ASSISTANCE OF COUNSEL
Claims of ineffective assistance of counsel are governed by the standard articulated by the
Supreme Court in Strickland v. Washington, 466 U.S. 668 (1984). First, Petitioner must prove
that “counsel’s representation fell below an objective standard of reasonableness.” Id. at 688.

27

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 28 of 37 PagelD# 335
t

The review of counsel’s performance is highly deferential, indulging

a strong presumption that

counsel’s conduct falls within the wide range of reasonable professional assistance.’”

Williams v.

Ozmmt, 494 F.3d 478,484 (4th Cir. 2007) {quoting Strickland, 466 U.S. at 689). “The defendant
(or petitioner) bears the burden of overcoming this presumption.” Id.
Second, Petitioner must show that counsel’s deficient performance actually prejudiced his
defense to the extent that there is a reasonable probability that, “but for counsel’s unprofessional
errors, the result of the proceeding would have been different,” Strickland, 466 U.S.
at 694. ‘“A
reasonable probability is a probability sufficient to undermine confidence in the outcome.’”
Glover v. Miro, 262 F.3d 268, 275 (4th Cir. 2001) {citing Strickland, 466 U.S. at 694).

Absent a

showing of prejudice, the court need not consider deficiency. Strickland, 466 U.S. at 697.
It is worthwhile to observe, before turning to the merits of Petitioner’s claims, that this
was not a close case. Petitioner’s version of events was riddled with inconsistencies, and his
defense was only that the Navy had orchestrated a massive conspiracy to cover up sexual
misconduct by its officers. Moreover, by deciding to take the witness stand and testify that other
witnesses had lied, Petitioner made his own credibility the key factor in his trial. Even a dry
reading of the transcript makes apparent Petitioner’s lack of credibility. Petitioner therefore faces
extreme difficulty in establishing any actual prejudice.
A.

Claims Relating to the Performance of Attorneys Miller and Legler
1.

Claim l(A)(i): Continuance of Trial Date

On state habeas review, the Supreme Court of Virginia found that Petitioner demonstrated
neither deficiency nor prejudice because Petitioner failed to present any evidence to rebut
counsel’s affidavits averring that they “advised [Petitioner of the need for each continuance they
sought due to the complex nature of the case, and [Petitioner concurred with their decisions.”
28

*.

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 29 of 37 PagelD# 336

State Hab. Op. 2. Petitioner has failed to rebut with clear and convincing evidence the
presumption that this factual finding was correct. Additionally, Petitioner does not explain how
any continuance prejudiced him. Accordingly, Claim 1 (A)(i) will be DISMISSED.
2.

Claim l(A)(ii): Failure to Communicate

The Supreme Court of Virginia rejected this claim because the record demonstrated
numerous meetings, and Petitioner failed to “articulate what counsel failed to communicate to
[Petitioner or what information he would have given counsel had they communicated more
frequently. State Hab. Op. 2. The Supreme Court of Virginia’s decision was not contrary to or
unreasonable in light of clearly established federal law, and was not based on an unreasonable
determination of the facts. See Beaver v. Thompson, 93 F.3d 1186,1195 (4th Cir. 1996) (“[A]n
allegation of inadequate investigation does not warrant habeas relief absent a proffer of what
favorable evidence or testimony would have been produced.”) (citing Bassette v. Thompson, 915
F.2d 932, 940-41 (4th Cir. 1990)). Claim l(A)(ii) will be DISMISSED.
3.

Claim l(A)(iii): Failure to Appear at the March 8,2004 Hearing

The Supreme Court of Virginia found that Petitioner demonstrated neither deficiency nor
prejudice because the hearing “concerned a news agency’s motion to quash the Commonwealth’s
subpoena and “[Petitioner fail[ed] to articulate why counsel needed to be present at this hearing
or how their absence prejudiced [Petitioner.” State Hab. Op. 3. The Supreme Court of
Virginia’s decision was not unreasonable. Indeed, the Circuit Court provisionally granted the
television station’s motion to quash at this hearing. Claim l(A)(iii) will be DISMISSED.
4.

Claim l(A)(iv): Withdrawal of Counsel Seven Days Prior to Trial

The Supreme Court of Virginia found that Petitioner demonstrated neither deficiency nor
prejudice because the record showed that “counsel were forced to Withdraw because the
29

V

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 30 of 37 PagelD# 337

Commonwealth decided to use counsel’s former and current clients as witnesses in [Petitioner's
case,” and because Petitioner did not “articulate how the change in counsel affected the
proceedings.” State Hab. Op. 3. The Supreme Court of Virginia’s decision was not contraiy to or
unreasonable in light of clearly established federal law, and was not based on an unreasonable
determination of the facts. Claim l(A)(iv) will be DISMISSED.
B.

Claims Relating to the Performance of Attorney Reed
1.

Claim l(B)(i): Failure to Investigate

The Supreme Court of Virginia rejected this claim because Miller and Legler had already
performed the bulk of the necessary investigation, and “[Petitioner failfed] to articulate what
additional investigation he contends Reed should have conducted or what information such an
investigation would have revealed.” State Hab. Op. 4. The Supreme Court of Virginia’s decision
was not contrary to or unreasonable in light of clearly established federal law, and was not based
on an unreasonable determination of the facts. Claim l(B)(i) will be DISMISSED.
2.

Claim l(B)(fi): Failure to Make Motions to Admit Evidence

The Supreme Court of Virginia found that Petitioner demonstrated neither defici ency nor
prejudice because Petitioner “fail[ed] to identify the evidence he contends counsel should have
moved to admit at trial.” State Hab. Op. 5. The Supreme Court of Virginia’s decision was not
contrary to or unreasonable in light of clearly established federal law, and was not based on an
unreasonable determination of the facts. Claim l(B)(ii) will be DISMISSED.
3.

Claim l(B)(iii): Failure to Adequately Meet with Petitioner

The Supreme Court of Virginia found that Petitioner demonstrated neither deficiency nor
prejudice because Petitioner “failfed] to articulate why additional meetings with Reed were
30

■ '

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 31 of 37 PagelD# 338

necessary and failfed] to identify what information Reed would have discovered had he and
[Petitioner met more often.” State Hab. Op. 5. The Supreme Court of Virginia’s decision

was

not contrary to or unreasonable in light of clearly established federal law, and was not based on an
unreasonable determination of the facts. Claim 1 (B)(iii) will be DISMISSED.
4.

Claim l(B)(iv): Failure to Subpoena Witnesses

The Supreme Court of Virginia rejected this claim because “[a] 1 though the [Petitioner
presents investigative reports and memoranda in support of this claim, [Petitioner fails to proffer
precisely what testimony these witnesses would have provided and fails to present any affidavits
to verify the witnesses would have testified favorably to the defense.” State Hab. Op. 6-7. Courts
are reluctant to find ineffective assistance based upon complaints regarding uncalled witnesses.”
Lenz v. True, 370 F. Supp. 2d 446,479 (W.D. Va. 2005) {citing Alexander v. McCotter, 775 F.2d
595, 602 (5th Cir. 1985)). The United States Court of Appeals for the Fifth Circuit has held that a
petitioner cannot demonstrate prejudice unless he demonstrates ‘“not only that [the] testimony ‘
would have been favorable, but also that the witness would have testified at trial.”’ Evans v.
Cockrell, 285 F.3d 370, 377 (5th Cir. 2002) (alteration in original) (quoting Alexander, 775 F.2d
at 602). Petitioner has not offered any evidence that the witnesses would have testified at trial.
Thus, the Supreme Court of Virginia’s decision was not contrary to or unreasonable in light of
clearly established federal law as determined by the Supreme Court, and was not based on an
unreasonable determination of the facts. Claim l(B)(iv) will be DISMISSED.
5.

Claim l(B)(v): Lying About Failure to Subpoena Witnesses

Petitioner does not argue, nor does the record show, that he was prejudiced by counsel’s
alleged lie. Claim l(B)(v) will be DISMISSED.
31

1 1

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 32 of 37 PagelD# 339

6.

Claim l(B)(vi): Failure to Adequately Cross-examine Mentzer

Petitioner claims that Mentzer faced second degree murder charges unless he told police
that Petitioner owned a knife. Petitioner claims that “if the jury [had known] that [Mentzer]

was

given immunity from prosecution, [Petitioner] could have been found innocent,” because the
Commonwealth’s case “almost entirely depended” on Mentzer’s testimony. (Br. Supp. Pet. 5-6.)
Mentzer s testimony was actually of little Consequence. Mentzer testified that Petitioner
once “proceeded to show us what he got” from a gun show, including a “virgin” knife. (Trial Tr.
1277-78.) Petitioner intended to keep the knife unused so that, if a burglar ever broke into his
apartment, he could shoot the burglar and then plant the knife on the body as justification. (Trial
Tr. 1278.) On cross-examination, Mentzer admitted that he told police investigating Elise’s death
that he had never known Petitioner to carry a knife. (Trial Tr. 1280-81.) Mentzer testified that he
did not recognize an exact replica of the knife, but that he did recognize the style “[b]ecause it was
in a plastic bag.... I didn’t see any - - you know, so what. You know, it’s a knife jn a plastic
bag.” (Trial Tr. 1278.) Thus, Mentzer did not appear to identify the “virgin” knife as the murder
weapon. Moreover, Detective Yoakam testified that it was “made specifically for Kmart stores to
be sold in Kmart stores solely.” (Trial Tr. 968.) Finally, many other witnesses testified that
Petitioner had a collection of guns and knives. In light of the extensive evidence presented against
Petitioner, he has not demonstrated counsel’s failure to pursue an opportunity to further impeach
Mentzer on this matter resulted in any prejudice. Claim 1 (B)(vi) will be DISMISSED.

32

• *

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 33 of 37 PagelD# 340

7.

Claim l(B)(vii): Failure to Object to Dunton’s Perjury and Evidence
Tampering

The Supreme Court of Virginia found that Petitioner demonstrated neither deficiency nor
prejudice because:
Petitioner proffer[ed] no evidence to establish that the blood in question belonged to
petitioner. The record, including the trial transcript, demonstrate[d] that counsel
questioned Wakeman, who testified that Mrs. Makdessi was transported directly from
the bedroom to the ambulance and that Wakeman did not know if Mrs. Makdessi bled
on the carpet while she was being transported....
Petitioner identifiefd] no act or omission by counsel and proffers no evidence that the
blood found on the carpet was sampled or tested. Thus, petitioner has failed to
demonstrate that counsel’s performance was deficient or that there is a reasonable
probability that, but for counsel s alleged errors, the result of the proceeding would
have been different.
State Hab. Op. 9*10. The Supreme Court of Virginia’s decision was not contrary to or
unreasonable in light of clearly established federal law, and was not based on an unreasonable
determination of the facts. Claim l(B)(vii) will be DISMISSED.
8.

Claim l(B)(viii): Failure to Object to Gardner’s Testimony that Petitioner
Had No Blood on His Hands

The Supreme Court of Virginia found that Petitioner demonstrated neither deficiency nor
prejudice because “Gardner did not testify that petitioner did not have blood on his hands.
Instead, Gardner testified that the pictures taken of petitioner’s hands at the hospital did not show
blood on the petitioner’s hands, leading Gardner to conclude that by the time the pictu re was
taken, petitioner had washed his hands.” State Hab. Op. 10. The Supreme Court of Virginia’s
decision was not contrary to or unreasonable in light of clearly established federal law, and was
not based on an unreasonable determination of the facts. Claim l(B)(viii) will be DISMISSED.

33

' 1

Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 34 of 37 PagelD# 341

9

TraTstory” ^ FaHure t0 °b^ect to the Intr°duction of the “Unbelievable

The Supreme Court of Virginia rejected this claim because of the evidence that the email
was sent through Petitioner’s account, and because Petitioner failed to articulate any basis for
objecting. State Hab. Op. 11. The Supreme Court of Virginia’s decision

was not contrary to or

unreasonable in light of clearly established federal law, and was not based on an unreasonable
determination of the facts. See Call v. Polk, 454 F. Supp. 2d 475, 499 (W.D.N.C. 2006) (“When a
habeas petitioner claims that counsel was ineffective without explaining in what manner the
performance was lacking, the reviewing court is not obliged to supply the grounds for

relief.”).

Claim l(B)(ix) will be DISMISSED.
10.

Claim l(B)(x): Failure to Object to the Prosecutor’s Statement During
Closing Arguments that Elise Was Shot

On state habeas review, the Supreme Court of Virginia found that Petitioner demonstrated
neither deficiency nor prejudice because “[tjhe record, including the trial transcript, demonstrates
that ample evidence was presented to establish that petitioner’s wife had been stabbed to death.
Petitioner fails to demonstrate how he was prejudiced by the prosecutor’s single misstatement that
Mrs. Makdessi was ‘shot’ as opposed to having been stabbed multiple times.”

State Hab. Op. 11-

12. The Supreme Court of Virginia’s decision was not contrary to or unreasonable in light of
clearly established federal law, and was not based on an unreasonable determination of the facts.
Claim l(B)(x) will be DISMISSED.
C.

Claims Relating to the Performance of Appellate Counsel
The state habeas court found that Claim 9 lacked merit because:

34

-Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 35 of 37 PagelD# 342

The record, including the affidavit of appellate counsel, demonstrates
that counsel met with petitioner on two occasions and discussed each
issue petitioner desired to raise on appeal. After consulting with
petitioner, petitioner and counsel agreed that they would raise
petitioner s strongest constitutional claims concerning the suppression
of the wife’s videotape and confession and petitioner’s inability to
access the law library . The selection of issues to address on appeal is
left to the discretion of appellate counsel, and counsel need not address
every possible issue on appeal. Jones v. Barnes. 463 U.S. 745 751-52
(1983).
’
State Hab. Op. at 14. Petitioner has failed to rebut the Supreme Court of Virginia’s findings with
clear and convincing evidence.10' Petitioner has also failed to argue, much less demonstrate, that
the omitted claims are “clearly stronger” than those presented on direct appeal. Bell v. Jarvis, 236
F.3d 149,164 (4th Cir. 2000) (quoting Smith v. Robbins, 528 U.S. 259,288 (2000)). Claim 9 will
be DISMISSED.
VI. RIGHT TO SELF-REPRESENTATION
In Claim 3(A) and Claim 5, Petitioner claims that the Circuit Court violated his right to
self-representation by denying him meaningful access to a law library. The Virginia Court of
Appeals held that this claim was without merit because Petitioner could have been represented by
appointed counsel, but refused, and therefore had no constitutional right to any access to a law
library. App. Ct. Op. 11 (citing United States v. Chatman, 584 F.2d 1358,1360 (4th Cir. 1978)).

Petitioner has attached as an exhibit a handwritten letter purportedly sent to appellate
counsel on June 5,2006, wherein he writes that the six grounds constitute “a few of the more
colorful reasons” that he “should get [his] appeal,” and that the grounds designated here as 1, 2,
and 3 “for sure... should be part of the appeal.” (Pet. Ex. 14, at 1.) Petitioner also attaches a ’
letter from appellate counsel dated August 3,2007, in which counsel refers to having received a
letter of June 5,2007. (Pet. Ex. 14, at 2.) This evidence, which was not submitted on state
habeas review, is neither clear nor convincing, and does not rebut the state court’s finding that
Petitioner agreed with counsel’s selection of claims on appeal.
35

' *

-Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 36 of 37 PagelD# 343

The Supreme Court of Virginia’s decision was not contrary to or unreasonable in light of clearly
established federal law, and was not based on an unreasonable determination of the facts. Claim
3(A) and Claim 5 will be DISMISSED.
In Claim 3(B), Petitioner claims the Circuit Court did not allow him to represent himself
effectively. Petitioner claims that, if he had not been interrupted by the Circuit Court, “[he] would
have pointed out to the court that [Elise] is pointing the finger at Quincy Brown in the videotape.”
(Br. Supp. Pet. 32.) Petitioner then would have introduced evidence that the videotape was
created no more than eleven days before the murder, and asked the Court to play the videotape

on

the record. (Br. Supp. Pet. 33.) Finally, Petitioner would have introduced statements made to the
police by the witnesses referred to in Claim l(B)(iv). (Br. Supp. Pet. 33-34.)
Petitioner’s claim is not factually supported. At the time Petitioner claims he was “cut
off,” the time to proffer evidence regarding the contents of the videotape had passed because the
Circuit Court had already ruled that it was inadmissible hearsay after hearing Petitioner’s
arguments." (Br. in Supp. of Pet. 31-32 (,quoting Jan. 12,2005 Tr. 9).) Additionally, the
transcript does not show that Petitioner ever began to proffer the contents of the videotape into
evidence. Moreover, Petitioner fails to cogently argue or cite any authority for the extraordinary
proposition that the Circuit Court’s evidentiary rulings rise to the level of constitutional violations
merely because Petitioner was not represented by counsel at the January 12, 2005 hearing. See
Rock v. Arkansas, 483 U.S. 44, 55 n.l 1 (1987) (observing that “[numerous state procedural and

" The Circuit Court explicitly reserved for trial any ruling on whether Petitioner’s
witnesses could testify as to Elise’s statements or the existence of the videotape. (Jan. 12,2005
Tr. 10.)
36

■ V Case 3:09-cv-00214-RLW Document 17 Filed 02/04/10 Page 37 of 37 PagelD# 344
i

evidentiary rules control the presentation of evidence and do not offend the defendant’s right to
testify”); United States v. Lancaster, 96 F.3d 734,744 (4th Cir. 1996) (rejecting proposition that
Sixth Amendment right to compulsory process “encompasses the right to present any evidence the
defense wishes, regardless of its admissibility under the Federal Rules of Evidence”). Claim 3(B)
will be DISMISSED.
The Petition will be DENIED, Petitioner’s Motion for an Evidentiary Hearing (Docket
No. 16) will be DISMISSED AS MOOT. The action will be DISMISSED.
An appropriate Order shall issue.
/s/

Richard L. Williams
United States District Judge

Richmond, Virginia

Date: KB 0 4 2010

37

Case 3:09-cv-00214-RLW Document 18 Filed 02/04/10 Page 1 of 1 PagelD# 345
»

fipptm x j)
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
ADIB EDDIE RAMEZ MAKDESSI,
Petitioner,
v.
Civil Action No. 3:09CV214

BRYAN WATSON,
Respondent.
ORDER

In accordance with the accompanying Memorandum Opinion, it is hereby ORDERED
that:
1.

Respondent’s motion to dismiss (Docket No. 11) is GRANTED

2.

Petitioner’s claims are DISMISSED;

3.

Petitioner s petition for a writ of habeas corpus (Docket No. 3) is DENIED;

4.
MUO1; and,
5.

f°r an evldentiary hearing (Docket No. 16) is DENIED AS

The action is DISMISSED.

Petitioner may appeal the decision of the Court. Failure to file written notice of appeal
within thirty (30) days of the date of entry hereof may result in the loss of the right to appeal.
The Clerk is DIRECTED to send a copy of the Memorandum Opinion and Order to
Petitioner.
And it is so ORDERED.

Date:F£B 0 4 2010
Richmond, Virginia

/s/
Richard L. Williams
United States District Judge

Case: 10-6268
t

Document: 24

Date Filed: 03/09/2011

/)PPEa1]))X

Page: 1

e

unpublished
UNITED STATES-COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 10-6268
ADIB EDDIE RAMEZ MAKDESSI, a/k/a Eddie Makdessi,
Petitioner - Appellant,
v.
BRYAN WATSON, Warden of Wallens Ridge State Prison,
Respondent - Appellee.

■iv

Appeal from the United States District Court for the Eastern
District of Virginia, at Richmond.
Richard L. Williams, Senior
District Judge.
(3:09-cv-00214-RLW)
Submitted:

January 28, 2011

Decided:

March 9, 2011

Before NIEMEYER, KING, and GREGORY, Circuit Judges.

P
Dismissed-by unpublished per curiam opinion.
Adib Eddie Ramez Makdessi, Appellant Pro Se.
Leah A. Darron
OFFICE OF THE ATTORNEY GENERAL OF VIRGINIA, Richmond, Virginia,/
for Appellee,

*

-Unpublished opinions are not binding precedent in this circuit.

Case: 10-6268

Document: 24

Date Filed: 03/09/2011

Page: 2

t
PER CURIAM:
Adib Eddie Ramez Makdessi seeks to appeal the district
court's

order

petition.

denying

relief

on

his

28

U.S.C.

§ 2254

The order is not appealable unless a circuit justice

or judge issues a certificate of appealability.
§ 2253(c) (1)
issue

(2006)

(2006) .

absent

"a

A certificate of

substantial

constitutional right."

See 28 U.S.C.

appealability will

showing

of

the

28 U.S.C. § 2253(c)(2)

denial

not

of

a

(2006).

~\

When the district court denies relief on the merits, a
prisoner

satisfies

this

jurists

would

reasonable

assessment of

denies

52 9 U.S.

537 U.S.
relief

demonstrate

find

by

that

322/ 336-38

on.

both

473,

484

that

the

district

that

court's

is debatable or wrong.

(2000);

(2003).

procedural

demonstrating

the.

the constitutional claims

Slack v. .McDaniel,
Cockrell

standard

see Miller-El v.

When the district court

grounds,

dispositive

the

prisoner

procedural

must

ruling

is

debatable, and that the petition states a debatable claim of the
denial of a constitutional right.
We

have

independently

reviewed

Slack,

the. record

529 U.S.
and

at 484-85.

conclude

that

Makdessi has not made the requisite showing.
Accordingly,
and dismiss

the

we

appeal.

deny

a

certificate

right

appealability

We also deny Makdessi's motions

transcripts and records at Government
constitutional

of

to appeal;

expense;

to compel
2

for

to preserve his

the prison to grant

*

Case: 10-6268

Document: 24

Date Filed: 03/09/2011

Page; 3

f

access

to the

dispense

with

law library;
oral

and for a protective

argument

because . the

facts

order,
and

We
legal

contentions are adequately presented in the materials before the
court and argument would not aid the decisional process.

DISMISSED

■

%

3

Additional material
from this filing is
available in the
Clerk's Office.

